17

PROOF OF SERVICE
I, Sasha McGaritv. do swear or declare that on this
date, October 01, 2021 as required by Supreme Court
Rule 29 I have served the enclosed MOTION FOR
LEAVE TO PROCEED IN FORMA PAUPERIS and
PETITION FOR A WRIT OF CERTIORARI on each
party to the above proceeding or that party’s counsel and
on every other person required to be served, by depositing
and envelope containing the above documents in the
United States mail properly addressed to each of them
and with first class postage prepaid, or by delivery to the
third-party commercial carrier for delivery within 3
calendar days.

The names of and addresses of those served are as
follows:

Counsel for Birmingham Public Schools
Giarmarco Mullins & Horton, P.C.
101 W Big Beaver Rd 10th Floor
Troy, MI 48084

I declare under penalty of perjury that the foregoing is
true and correct.
Executed on October 01. 2021

ju

(Signature'

o\

<ZJ

